                                                                               Issue Date
                                                                                 November 14, 2007
                                                                               Audit Case Number
                                                                                  2008-FO-0003




TO:             John W. Cox, Chief Financial Officer, F


FROM:           Robert A. McGriff, Director, Financial Audits Division, GAF

SUBJECT: Additional Details to Supplement Our Report on HUD’s Fiscal Years 2007
           and 2006 Financial Statements

                                            HIGHLIGHTS

 What We Audited and Why

                 We are required to annually audit the consolidated financial statements of the U.S.
                 Department of Housing and Urban Development (HUD) in accordance with the
                 Chief Financial Officers Act of 1990, as amended. Our report on HUD’s fiscal
                 years 2007 and 2006 financial statements is included in HUD’s Fiscal Year 2007
                 Performance and Accountability Report. This report supplements our report on
                 the results of our audit of HUD’s principal financial statements for the fiscal years
                 ending September 30, 2007, and September 30, 2006. Also provided are
                 assessments of HUD’s internal controls and our findings with respect to HUD’s
                 compliance with applicable laws and regulations, and provisions of contracts and
                 grant agreements1.




    1
      Additional details relating to the Federal Housing Administration (FHA), a HUD component, are not included
in this report but are included in the accounting firm of Urbach Kahn and Werlin LLP’s audit of FHA’s financial
statements. That report has been published in our report, Audit of Federal Housing Administration Financial
Statements for Fiscal Years 2007 and 2006 (2008-FO-0002, dated November 08, 2007).

    Additional details relating to the Government National Mortgage Association, (Ginnie Mae), another HUD
component, are not included in this report but are included in the accounting firm of Carmichael Brasher Tuvell and
Company’s audit of Ginnie Mae’s financial statements. That report has been published in our report, Audit of
Government National Mortgage Association Financial Statements for Fiscal Years 2007 and 2006 (2008-FO-0001,
dated November 07, 2007).
What We Found

         In our opinion, HUD’s fiscal years 2007 and 2006 financial statements were fairly
         presented. Our opinion on HUD’s fiscal years 2007 and 2006 financial
         statements is reported in HUD’S Fiscal Year 2007 Performance and
         Accountability Report. The other auditors and our audit also disclosed:

         •   Material weaknesses in internal controls related to the need to
             − Develop a risk assessment and systems development plan for FHA’s
                Home Equity Conversion Mortgage (HECM) systems and transactions;
                and
             − Enhance the HECM credit subsidy cash flow model.

         •   Significant deficiencies in internal controls related to the need to
             − Comply with federal financial management systems requirements;
             − Continue improvements in the oversight and monitoring of subsidy
                calculations and intermediaries program performance;
             − Improve the budgeting and funds control process for Section 8 project-
                based contracts;
             − Improve the processes for reviewing obligation balances;
             − Further strengthen controls over HUD’s computing environment;
             − Improve personnel security practices for access to the Department’s
                critical financial systems;
             − Strengthen FHA system security controls; and
             − Improve Ginnie Mae’s programs compliance and controls regarding
                monitoring of issuers.

         Our findings include the following instance of non-compliance with applicable
         laws, regulations, and provisions of contracts and grant agreements:

             HUD did not substantially comply with the Federal Financial Management
             Improvement Act regarding system requirements and applicable accounting
             standards.

         The audit also identified $342.3 million in excess obligations recorded in HUD’s
         records. Moreover, HUD could have recaptured another $580 million from
         expired project-based Section 8 contracts instead of recapturing funds from active
         long-term contracts. These amounts represent funds that HUD could put to better
         use.

What We Recommend


         Most of the issues described in this report represent long-standing weaknesses.
         We understand that implementing sufficient change to mitigate these matters is a
         multiyear task due to the complexity of the issues and the impediments to change.


                                          2
          In this and in prior years’ audits of HUD’s financial statements, we have made
          recommendations to HUD’s management to address these issues. Our
          recommendations from the current audit, as well as those from prior years’ audits
          that remain open, are listed in Appendix B of this report.

          For each recommendation without a management decision, please respond and
          provide status reports in accordance with HUD Handbook 2000.06, REV-3.


HUD’s Response


          The complete text of the agency’s response can be found in Appendix E. This
          response, along with additional informal comments, was considered in preparing
          the final version of this report.




                                          3
                      TABLE OF CONTENTS

Highlights                                                                 1

Internal Control                                                           5

Compliance with Laws and Regulations                                      31

Appendixes
   A. Objectives, Scope, and Methodology                                  33
   B. Recommendations                                                     35
   C. FFMIA Noncompliance, Responsible Program Offices, and Recommended   37
      Remedial Actions
   D. Schedule of Questioned Costs and Funds Put to Better Use            50
   E. Agency Comments                                                     51
   F. OIG Evaluation of Agency Comments                                   54




                                        4
                                    Internal Control

Significant Deficiency: HUD Financial Management Systems Need to Comply
with Federal Financial Management System Requirements

As reported in prior years, the HUD is not in full compliance with federal financial management
requirements. Specifically, it has not completed development of an adequate integrated financial
management system. HUD is required to implement a unified set of financial systems and the
financial portions of mixed systems encompassing the software, hardware, personnel, processes
(manual and automated), procedures, controls, and data necessary to carry out financial
management functions, manage financial operations of the agency, and report on the agency’s
financial status to central agencies, Congress, and the public. As currently configured, HUD
financial management systems do not meet the test of being unified. The Federal Financial
System Integration Office defines “unified” as meaning that the systems are planned for and
managed together, operated in an integrated fashion, and linked electronically to efficiently and
effectively provide agency wide financial system support necessary to carry out the agency’s
mission and support the agency’s financial management needs.

HUD’s financial systems, many of which were developed and implemented before the issue date
of current standards, were not designed to perform or provide the range of financial and
performance data currently required. The result is that HUD, on a department wide basis, does
not have unified and integrated financial management systems that are compliant with current
federal requirements or provide HUD the information needed to effectively manage its
operations on a daily basis. This impairs management’s ability to perform required financial
management functions; efficiently manage the financial operations of the agency; and report, on
a timely basis, the agency’s financial results, performance measures, and cost information.

 FFMIA Requires HUD to
 Implement a Compliant Financial
 Management System


              The Federal Financial Management Improvement Act of 1996 (FFMIA) requires,
              among other things, that HUD implement and maintain financial management
              systems that substantially comply with federal financial management system
              requirements. The financial management system requirements also include
              implementing information system security controls. These requirements are
              detailed in the Federal Financial Management System Requirements series issued
              by the Joint Financial Management Improvement Program/Financial System
              Integration Office (JFMIP/FISO) and in Circular No. A-127, Financial
              Management Systems, issued by the Office of Management and Budget (OMB).
              Circular A-127 defines a single integrated financial management system as a
              unified set of financial systems and the financial portions of mixed systems (e.g.,
              acquisition) encompassing the software, hardware, personnel, processes (manual
              and automated), procedures, controls, and data necessary to carry out financial



                                                5
           management functions, manage the financial operations of the agency, and report
           on the agency’s financial status.


           As in previous audits of HUD’s financial statements, in fiscal year 2007 there
           continued to be instances of noncompliance with federal financial management
           system requirements. These instances of noncompliance have given rise to
           significant management challenges that have: (1) impaired management’s ability
           to prepare financial statements and other financial information without extensive
           compensating procedures, (2) resulted in the lack of reliable, comprehensive
           managerial cost information on its activities and outputs, and (3) limited the
           availability of information to assist management in effectively managing
           operations on an ongoing basis.


HUD’s Financial Systems Are
Not Adequate

           As reported in prior years, HUD does not have financial management systems that
           enable it to generate and report the information needed to both prepare financial
           statements and manage operations on an ongoing basis accurately and timely. To
           prepare consolidated department wide financial statements, HUD required Federal
           Housing Administration (FHA), the Government National Mortgage Association
           (Ginnie Mae), and the Office of Federal Housing Enterprise Oversight to submit
           financial statement information on spreadsheet templates, which were loaded into
           a software application. In addition, all consolidating notes and supporting
           schedules had to be manually posted, verified, reconciled, and traced. To
           overcome these systemic deficiencies with respect to preparation of its annual
           financial statements, HUD was compelled to rely on extensive compensating
           procedures that were costly, labor intensive, and not always efficient.

           Due to a lengthy HUD Integrated Financial Management Improvement Project
           (HIFMIP) procurement process and lack of funding for other financial application
           initiatives, there were no significant changes made in fiscal year 2007 to HUD’s
           financial management processes. As a result the underlying system limitations
           identified in past years remain. The functional limitations of the three
           applications (HUDCAPS, LOCCS and PAS) performing the core financial system
           function for HUD are dependent on its data mart and reporting tool to complete
           the accumulation and summarization of data needed for U.S. Department of the
           Treasury and OMB reporting.

   HUD’s Financial Systems do not
   Provide Managerial Cost Data



           In fiscal year 2006 the Government Accountability Office (GAO) reported in
           GAO-06-1002R Managerial Cost Accounting Practices that HUD’s financial


                                            6
systems do not have the functionality to provide managerial cost accounting
across its programs and activities. This lack of functionality has resulted in the
lack of reliable and comprehensive managerial cost information on its activities
and outputs. HUD lacks an effective cost accounting system that is capable of
tracking and reporting costs of HUD’s programs in a timely manner to assist in
managing its daily operations. This condition renders HUD unable to produce
reliable cost-based performance information.

HUD officials have indicated that various cost allocation studies and resource
management analyses are required to determine the cost of various activities
needed for mandatory financial reporting. However, this information is widely
distributed among a variety of information systems, which are not linked and
therefore cannot share data. This makes the accumulation of cost information
time consuming, labor intensive, untimely, and ultimately makes that cost
information not readily available. Budget, cost management, and performance
measurement data are not integrated because HUD:

•   Did not interface its budget formulation system with its core financial system;

•   Lacks the data and system feeds to automate a process to accumulate, allocate,
    and report costs of activities on a regular basis for financial reporting needs, as
    well as internal use in managing programs and activities;

•   Does not have the capability to derive current full cost for use in the daily
    management of Department operations; and

•   Requires an ongoing extensive quality initiative to ensure the accuracy of the
    cost aspects of its performance measures as they are derived from sources
    outside the core financial system.

While HUD has modified its resource management application to enhance its cost
and performance reporting for program offices and activities, the application does
not use core financial system processed data as a source. Instead, HUD uses a
variety of applications, studies, and models to estimate the cost of its program
management activities. One of these applications, TEAM/REAP, was designed
for use in budget formulation and execution, strategic planning, organizational
and management analyses, and ongoing management of staff resources. It was
enhanced to include an allocation module that added the capability to tie staff
distribution to strategic objectives, the President’s Management Agenda, and
HUD program offices’ management plans. HUD also concluded a pilot program
of this functionality in fiscal year 2007.

Additionally, HUD has developed time codes and an associated activity for nearly
all HUD program offices to allow automated cost allocation to the program office
activity level. HUD has indicated that the labor costs that will be allocated to
these activities will be obtained from the HUD payroll service provider.



                                  7
             However, because the cost information does not pass through the general ledger,
             current federal financial management requirements are not met.


Financial Systems do not Provide
for Effective and Efficient
Financial Management


             During fiscal year 2007, HUD’s financial information systems did not allow it to
             achieve its financial management goals in an effective and efficient manner in
             accordance with current federal requirements. To perform core financial system
             functions, HUD depends on three major applications, in addition to a data
             warehouse and a report-writing tool. Two of the three applications that perform
             core financial system functions require significant management oversight and
             manual reconciliations to ensure accurate and complete information. HUD’s use
             of multiple applications to perform core financial system functions further
             complicates financial management and increases the cost and time expended.
             Extensive effort is required to manage and coordinate the processing of
             transactions to ensure the completeness and reliability of information.


             While the FHA Subsidiary Ledger (FHA SL) project did provide for funds control
             checks on transactions as they were posted to the general ledger, this check
             occurred after the decision to guarantee, obligate, or disburse was made. Current
             federal requirements state that the funds control checks should be performed
             before issuing a loan guarantee, approving a disbursement, or in some way
             binding the government to an obligation. Until its business systems are re-
             engineered or replaced, FHA will have to continue to rely on daily or month-end
             funds control checks for most of its legacy system transactions.


             Additionally, the interface between the core financial system and HUD’s
             procurement system does not provide the required financial information. The
             procurement system interface with HUDCAPS does not contain data elements to
             support the payment and closeout processes. Also, the procurement system does
             not interface with LOCCS and PAS. Therefore, the processes of fund
             certification, obligation, de-obligation, payment, and close out of transactions that
             are paid out of the LOCCS system are all completed separately, within either PAS
             or LOCCS. This lack of compliance with federal requirements impairs HUD’s
             ability to effectively monitor and manage its procurement actions.


             As previously noted, FHA’s financial management system’s environment needed
             enhancements to more effectively support FHA’s insurance, cash management,
             and budget processes. FHA is in the process of upgrading and integrating its
             mixed and feeder financial systems. Its progress was slowed in fiscal year 2007
             due to a lack of available funding.



                                               8
   HUD Plans to implement a
   Department Wide Core Financial
   System

              HUD plans to implement a commercial federal certified core financial system and
              integrate the current core financial system into one Department-wide core
              financial system. Additional subsidiary systems will also be integrated to the
              departmental system by fiscal year 2012. HUD is initiating business process
              engineering work to ensure a smooth transition to a single integrated core
              financial system. FHA and Ginnie Mae have already implemented a compatible
              and compliant system to support the transition to the enterprise core financial
              system. HUD’s OCFO has completed the planning and requirements stage. A
              significant effort during the ongoing phased approach is to assess the financial,
              programmatic, and mixed systems operating on multiple disparate platforms that
              provide information to the financial systems. The assessments include developing
              a plan to standardize and migrate financial functions to the enterprise core
              financial system to support HUD's planned enterprise architecture goals to align
              with the major segment architectures that support HUD's major business
              processes. HUD plans to select a qualified shared service provider to host the
              enterprise system and integrate the four financial systems (HUD, FHA, Ginnie
              Mae, and OFHEO) into a single system by fiscal year 2012. OCFO and FHA
              plans to transition and integrate to a single system in the fiscal year 2009 or 2010
              time period; Ginnie Mae plans to integrate to the enterprise system in fiscal year
              2010 and OFHEO plans to transition in either fiscal year 2011 or 2012.
              Achieving integrated financial management for HUD will result in a reduction in
              the total number of systems maintained, provide online, real-time information for
              management decision-making, enable HUD to participate in E-government
              initiatives, and align with HUD's Information Technology (IT) modernization
              goals.



Significant Deficiency: HUD Management Must Continue to Improve
Oversight and Monitoring of Subsidy Calculations and Intermediaries’
Program Performance
Under the provisions of the U.S. Housing Act of 1937, HUD provides housing assistance funds
through various grant and subsidy programs to multifamily project owners (both nonprofit and
for profit) and housing authorities. These intermediaries, acting for HUD, provide housing
assistance to benefit primarily low-income families and individuals (households) that live in
public housing, Section 8 and Section 202/811 assisted housing, and Native American housing.
In fiscal year 2007, HUD spent about $27 billion to provide rent and operating subsidies that
benefited more than four million households.

Since 1996, we have reported on weaknesses with the monitoring of the housing assistance
program’s delivery and the verification of subsidy payments. We focused on the impact these
weaknesses had on HUD’s ability to (1) ensure intermediaries are correctly calculating housing


                                               9
subsidies and (2) verify tenant income and billings for subsidies. During the past several years,
HUD has made progress in correcting this deficiency. In 2007, HUD continued utilizing the
comprehensive consolidated reviews in the Office of Public and Indian Housing’s (PIH) efforts
to address public housing authorities’ (PHA) improper payments and other high-risk elements.
HUD’s continued commitment to the implementation of a comprehensive program to reduce
erroneous payments will be essential to ensuring that HUD’s intermediaries are properly carrying
out their responsibility to administer assisted housing programs according to HUD requirements.

The Department has demonstrated improvements in its internal control structure to address the
significant risk that HUD’s intermediaries are not properly carrying out their responsibility to
administer assisted housing programs according to HUD requirements. HUD’s increased and
improved monitoring has resulted in a significant decline in improper payment estimates over the
last five years. However, HUD needs to continue to place emphasis on its on-site monitoring
and technical assistance to ensure that acceptable levels of performance and compliance are
achieved and periodically assess the accuracy of intermediaries rent determinations, tenant
income verifications, and billings.

Tenant income is the primary factor affecting eligibility for housing assistance, the amount of
assistance a family receives, and the amount of subsidy HUD pays. Generally, HUD’s subsidy
payment makes up the difference between 30 percent of a household’s adjusted income and the
housing unit’s actual rent or, under the Section 8 voucher program, a payment standard. The
admission of a household to these rental assistance programs and the size of the subsidy the
household receives depend directly on the household’s self-reported income. However,
significant amounts of excess subsidy payments occur because of intermediaries’ rent
determinations and undetected, unreported, or underreported income. By overpaying rent
subsidies, HUD serves fewer families. Every dollar paid in excess subsidies represents funds
that could have been used to subsidize other eligible families in need of assistance.



 HUD’s estimate of erroneous payments rises in 2007


              The estimate of erroneous payments that HUD reports in its Performance and
              Accountability Report relates to HUD’s inability to ensure or verify the accuracy
              of subsidy payments being determined and paid to assisted households. This
              year’s contracted study of HUD’s three major assisted housing programs
              estimated that the rent determination errors made by the intermediaries resulted in
              substantial subsidy overpayments and underpayments. The study was based on
              analyses of a statistical sample of tenant files, tenant interviews, and income
              verification data for activity that occurred during fiscal year 2006. This study
              reports subsidy payment inconsistencies in which HUD incorrectly paid $954
              million in annual housing subsidies, of which about $648 million was overpaid on
              behalf of households paying too little rent and about $306 million was underpaid
              on behalf of households paying too much rent based on HUD requirements. This
              is a 3 percent increase in the gross erroneous payment in comparison to the prior
              year. The estimate of erroneous payments is reported in HUD’s Fiscal Year 2007
              Performance and Accountability Report.


                                               10
         The estimate of erroneous payments this year also includes overpaid subsides
         from underreported and unreported income and intermediaries’ billings errors.
         HUD estimated that housing subsidy overpayments from tenants misreporting
         their income totaled an additional $377 million in overpayments during calendar
         year 2006. During our testing of the initial error estimate results, we found
         additional cases resulting in valid errors. Therefore, including the subsidy error
         associated with the income from these cases, the revised estimate is $384 million.

         HUD did not conduct a billings study during fiscal year 2007. Therefore, the
         results of last year’s study will carryover for this year’s billings error estimate.
         Based on the payment errors that were identified for the Office of Housing’s
         project-based Section 8 housing program, HUD reported an estimated $59 million
         in program billings errors for fiscal year 2006. In addition, PIH reported its fiscal
         year 2004 billings error estimate of $72 million for the Housing Choice Voucher
         program.

         Additionally, an operating subsidy estimate of $49 million was included in the
         PIH billings estimate. Therefore, adding the Office of Housing’s estimate of $59
         million to the PIH estimate of $72 million for Section 8 and the $49 million for
         operating subsidy resulted in a $180 million estimate of erroneous payments for
         billings errors.

         In addition to the Rental Housing Integrity Improvement Project (RHIIP)-related
         estimates, HUD performed a risk assessment update on one third of all HUD
         programs exceeding $40 million in expenditures (except those associated with the
         RHIIP) to determine whether they are susceptible to significant erroneous or
         improper payments. The OCFO performed a risk assessment on nine of HUD’s
         funded activities (programs). Eight of the nine programs were updated and
         reevaluated for the current risk assessment. For the other program, Housing
         Counseling Assistance, this is the first year that a risk assessment was conducted.
         Although individual program risk ratings for the eight programs may have
         changed slightly, none of the programs evaluated were considered susceptible to
         significant improper payments for fiscal year 2006, as defined in OMB Circular
         A-123, Appendix C, Part 1.

         OMB Circular No. A-11, Section 57 had previously required an evaluation of the
         error rates of specific programs listed for each agency. Two of the five programs
         listed in Section 57 for HUD were included in their risk assessment. However,
         they were not determined to be susceptible to significant improper payments.
         Therefore, HUD will not be reporting an error rate for these programs.


HUD needs to continue initiatives to detect
unreported tenant income


         The computer matching agreement between HUD’s Office of Housing and the
         Department of Health and Human Services (HHS) for use of the National


                                          11
          Directory of New Hires in the Enterprise Income Verification system (EIV) was
          finalized in fiscal year 2007. An expansion of EIV to HUD’s project-based
          owners is planned for fiscal year 2008. EIV is a web-based system that compiles
          tenant income information and makes it available online to HUD business
          partners so that they may more accurately determine tenant income as part of the
          process of setting rental subsidy. Currently, EIV matches tenant data against
          Social Security Administration information, including Social Security Act
          benefits and Supplemental Security Income, and with the HHS National Directory
          of New Hires (NDNH) database, which provides information such as wages,
          unemployment benefits, and W-4 (“new hires”) data, on behalf of PIH and
          Multifamily Housing programs. The EIV System is available to PHAs
          nationwide, and all PHAs are encouraged to use and implement the Enterprise
          Income Verification System in their day-to-day operations.


HUD needs to continue progress on RHIIP initiatives


          HUD initiated the RHIIP initiatives in fiscal year 2001 in an effort to develop
          tools and the capability to minimize erroneous rental subsidy payments, which
          includes the excess rental subsidy caused by unreported and underreported tenant
          income. Since our last report, HUD has continued to make progress in
          implementing several initiatives that address the problems surrounding housing
          authorities’ rental subsidy determinations, underreported income, and assistance
          billings. However, HUD still needs to ensure that it fully utilizes automated tools
          to detect rent subsidy processing deficiencies and identify and measure erroneous
          payments.

          During fiscal year 2006, HUD implemented an initiative to perform consolidated
          reviews in order to reinforce PIH’s effort in addressing PHA improper payments
          and other high-risk elements. These reviews were also implemented to ensure the
          continuation of the PIH’s comprehensive monitoring and oversight of PHAs. In
          fiscal year 2007, Tier 1 comprehensive reviews on 20 percent of the PHAs that
          manage 80 percent of HUD’s funds are mandatory. According to the Fiscal Year
          2007 Management Plan directive, PIH identified 90 PHAs that receive 80 percent
          of HUD’s funding for the priority Tier 1 comprehensive reviews. Tier 2
          comprehensive reviews of the remaining PHAs are optional, depending upon each
          field office’s resources. Tier 1 comprehensive reviews will include rental
          integrity monitoring (RIM), RIM follow-up on Corrective Action Plans (CAPs),
          EIV implementation and security, SEMAP confirmatory reviews, SEMAP quality
          control reviews, EH&S spot-checks, MASS certifications, and civil rights limited
          front-end reviews.

          Documentation provided during our review showed that 98 Tier I reviews and 11
          Tier II reviews were performed during fiscal year 2007. Because of the
          deficiencies identified in the consolidated reviews, CAPs were implemented at 14
          PHAs. At the end of our fieldwork, none of the CAPs from these reviews had
          been closed out. Additionally, at the end of our fiscal year 2006 fieldwork we


                                           12
               noted that 16 CAPs were still open from the 2003-2004 RIM follow-up reviews.
               During our fiscal year 2007 review, we determined that 14 of these CAPs are still
               open because the respective PHA was either in receivership or in troubled status.
               HUD must continue to assure that CAPs are implemented and closed out, thereby
               assuring that the systemic errors identified during the reviews were corrected.

               In prior years, we reported that the Public Housing Information Center system
               (now known as the Inventory Management System) information was incomplete
               and/or inaccurate because housing authority reporting requirements were
               discretionary. This has been a long-standing deficiency. Therefore, PHAs have
               been mandated to submit 100 percent of their family records to HUD’s Public
               Housing Information Center system (Inventory Management System) Form 50058
               Module. In addition, PHAs must have a minimum reporting rate of 95 percent at
               the time of their annual Form HUD 50058 reporting rate assessment or be subject
               to sanctions. During our field review at four field offices, we noted 137 PHAs
               that were not meeting the minimum 95 percent reporting rate. Since HUD uses
               the tenant data from its Public Housing Information Center system (Inventory
               Management System) for the income-matching program and program monitoring,
               it is essential that the database have complete and accurate tenant information.
               Therefore, until a more efficient and effective means of verifying the accuracy of
               the data is developed, HUD needs to continue to emphasize the importance of
               accurate reporting and proactively enforce sanctions against those PHAs that do
               not follow the requirement.

               HUD has made substantial progress in taking steps to reduce erroneous payments.
               However, HUD must continue its regular on-site and remote monitoring of the
               PHAs and use the results from the monitoring efforts to focus on corrective
               actions when needed. We are encouraged by the on-going actions to focus on
               improving controls regarding income verification, as well as HUD’S plans
               regarding CAPs, consolidated reviews, and the continual income and rent training
               for HUD, owners, management agents, and PHA staff.


Significant Deficiency: HUD Needs to Improve its Budgeting and Funds
Control Over Section 8 Project-based Contracts

HUD’s systems and controls for accounting, processing payments, monitoring, and budgeting for
Section 8 project-based contracts need to be improved. HUD has been hampered in their ability
to estimate funding requirements, process timely payments to project-based landlords, and to
recapture excess funds in a timely manner. This is evidenced in HUD’s long-term challenges in
paying Section 8 project-based landlords on a timely basis and properly monitoring and
accurately accounting and budgeting for contract renewals. These historic problems with the
Section 8 project-based program were further exacerbated and highlighted in fiscal year 2007
due to a change in the interpretation of the contract language used in the Section 8 project-based
renewal contracts and the movement of Section 8 project-based contracts from the HUDCAPS
accounting system to the Program Accounting System (PAS) accounting system.




                                               13
           HUD currently administers over 18,000 housing assistance payment (HAP) contracts to
           provide about 1.25 million low-income housing units. A total of 12,910 contracts,
           covering over 915,000 housing units, are subject to annual renewals.

    Violation of Antideficiency Act
    may have occurred

           Since the late 1990’s HUD has incrementally funded annual Section 8 project based
           contract renewals based on availability of funds. However, HUD performed a review of
           the contract language and program funds control processes in fiscal year 2007 and took
           the position that the incremental funding of contract renewals was not proper and that a
           violation of the Antideficiency Act may have occurred2.

           As of June 15, 2007, HUD had incurred legal obligations to disburse about $2.4 billion
           on Section 8 housing assistance payment contracts for which it had not recorded the
           associated obligations in its accounting system. This occurred because the legal
           obligations created by the contracts exceeded the amount of budget authority initially
           determined to be available to HUD. The amounts, in part, represented budget authority
           that would be needed to fund payments on existing contracts that were expected to be
           made during 2008. As of June 15, 2007, the recorded budget authority available to HUD
           for these contracts was about $605 million. Additionally, the renewal of 3,928 contracts
           expiring during fiscal year 2007 would require an additional $1.9 billion of budget
           authority to cover payments expected to be made during fiscal year 2008.

      HUD recaptured additional funds
      to cover Section 8 needs


           As a result, in July 2007, HUD faced funding needs of $4.75 billion in Section 8 project-
           based funds to meet remaining fiscal year 2007 contract and rescission requirements.
           HUD undertook a strategy to (1) fully fund the $2.4 billion in unrecorded obligations for
           contracts already executed in 2007; (2) revise contract terms for pending renewals to
           allow for $700 million in incremental funding; and (3) review existing expired and active
           contracts for potential funds that could be used to cover Section 8 project-based funding
           shortfalls and the $1.65 billion rescission mandated by Congress. While HUD was able
           to find additional sources of funds through the recapture of excess funds from expired
           and/or active long-term contracts, HUD was late in paying some project-based landlords.
           Further, HUD’s analysis of future funding needs did not consider excess funding on all
           expired contracts.

           Historically, HUD has annually performed a review to identify and recapture excess
           funds from both expired long-term contracts and annual renewal contracts. HUD used
           these recaptured excess funds to provide additional funds for contracts that were under-
           funded or to meet rescissions mandated by Congress. Because of the projected 2007
           shortfall in Section 8 project-based funds, HUD not only recaptured funds from expired

2
    As of the date of our report, HUD had not rendered a formal written legal opinion on this matter.


                                                           14
 contracts, but also re-estimated the funding needs for the remaining active Section 8 long-
 term contracts, and recaptured $1.2 billion from contracts that were projected to have
 funds remaining at the end of their term.

HUD’s recapture
methodology needs revision

 However, our review showed that HUD’s recapture methodology did not consider
 Section 8 project-based contracts that expired during fiscal year 2007 as a potential
 source for recaptures. We found that HUD could have recaptured up to $580 million
 from these expired contracts, in lieu of recapturing funds from active long-term contracts.
 We recommend that HUD revise its Section 8 project-based recapture methodology and
 recapture funds from Section 8 contracts that expired in the current fiscal year. HUD has
 undertaken a review to develop a more accurate estimate of funding requirements for its
 long-term Section 8 project-based contracts.

A long-term financial management
system solution is needed

 In addition, HUD still needs to develop a long-term financial management system
 solution to streamline and automate the overall Section 8 project-based budgeting,
 payment, and contract management process. HUD’s process for renewing subsidy
 contracts is largely a manual and paper-based process. HUD lacks the internal processes
 to timely estimate the contract funding level on an ongoing basis. There is a lack of
 automated interfaces between the Office of Housing subsidiary records with the
 Department’s general ledger for the control of program funds. This necessitates that
 HUD and its contractors make extensive use of ad hoc analyses and special projects to
 review Section 8 contracts. In fiscal year 2007 HUD initiated a project to eliminate their
 use of dual accounting systems, HUDCAPS and PAS, to monitor, make payments, and
 recapture funds for the Section 8 project-based contracts. Under this project, HUD
 transferred the accounting for 4,507 Section 8 contracts from HUDCAPS to PAS, thereby
 centralizing the Section 8 project-based contract inventory in one accounting system.
 However, difficulties were encountered in converting this data, which contributed to
 delays in payments to Section 8 landlords. In addition, as a result of revising contract
 terms for pending renewals and the resulting processing and execution, HUD was forced
 to delay payments to project-based landlords until contracts were fully executed. HUD
 sent out the 1,728 revised 2007 contracts for the fourth-quarter (July-September) to
 contract administrators during the first week of September 2007.

 In addition, we found that the quality of data in PAS needs to be improved and HUD
 needs to perform a review to ensure that PAS data used to compute obligation balances is
 accurate and reliable. Our review of the Section 8 project-based account balances
 showed deficiencies that raised concerns about the integrity and usefulness of PAS data
 for computing funding requirements for Section 8 project-based assistance contracts.
 Specifically, we noted that:



                                         15
        •   Funds totaling $5.2 million were recaptured from 1,122 projects that were reported in
            PAS as having no available balance.

        •   PAS data showed more than 14,000 funding lines with an initial contract date or
            contract expiration date of “January 1, 1900.” Of the total 14,000 funding lines, 2087
            were reported in PAS as having $1.6 billion of available funds.

        •   The month-to-date disbursement field equaled zero for more than 7000 contracts,
            even though disbursements were made on these contracts in fiscal year 2007.

        •   The contracted units reported in PAS differed from the number of units shown as
            contracted in the Tenant Rental Assistance Certification System (TRACS).

        On November 15, 2005 GAO reported3 similar concerns and recommended that HUD
        streamline and automate the contract renewal process, better estimate and monitor
        contract funding levels, and notify owners about expected late payments. HUD agreed
        with the recommendations, but we found HUD has not fully implemented them.



Significant Deficiency: HUD Needs to Improve Processes for Reviewing
Obligation Balances
HUD needs to improve controls over the monitoring of obligation balances to ensure they remain
needed and legally valid as of the end of the fiscal year. HUD’s procedures for identifying and
deobligating funds that are no longer needed to meet its obligations were not always effective.
This has been a long-standing weakness. Our review of the 2007 year-end obligation balances
showed $342.3 million in excess funds that could be recaptured. We have been reporting
deficiencies in this area for several years and while HUD has been working to implement
improved procedures and information systems, progress has been slow. Major deficiencies
include:

        •   Timely reviews of unexpended obligations are not being performed, and

        •   A lack of integration between accounting systems and the need for accurate databases
            has hampered HUD’s ability to evaluate unexpended Section 8, Rental Assistance
            Payment, Rent Supplement, and Interest Reduction Program obligations.

Annually, HUD performs a review of unliquidated obligations to determine whether the
obligations should be continued, reduced, or canceled. We evaluated HUD’s internal controls
for monitoring obligated balances.




3
 GAO-06-57 Project-Based Rental Assistance: HUD Should Streamline Its Processes to Ensure Timely Housing
Assistance Payments, November 15, 2005


                                                    16
    Section 8 Programs


                 Section 8 budget authority is generally available until expended. As a result,
                 HUD should periodically assess budget needs and identify excess program
                 reserves in the Section 8 programs as an offset to future budget requirements.
                 Excess program reserves represent budget authority originally received, which
                 will not be needed to fund the related contracts to their expiration. While HUD
                 had taken some action to identify and recapture excess budget authority in the
                 Section 8 programs, weaknesses in the review process and inadequate financial
                 systems continue to hamper HUD’s efforts.4 There is a lack of automated
                 interfaces between the Office of Public and Indian Housing and the Office of
                 Housing subsidiary records with the Department’s general ledger for the control
                 of program funds. This necessitates that HUD and its contractors make extensive
                 use of ad hoc analyses and special projects to review Section 8 contracts for
                 excess funds, which has hampered HUD’s ability to identify excess funds
                 remaining on Section 8 contracts in a timely manner.

                 This fiscal year, the Office of Housing recaptured approximately $1.7 billion in
                 unliquidated obligation balances in the Section 8 project-based program. Our
                 review of the Section 8 project-based contracts showed an additional $172.1
                 million of available contract/budget authority on 1,187 contracts that had
                 expiration dates prior to October 1, 2006. Funds associated with these contracts
                 should be recaptured.

                 In August 2007, the Office of Public and Indian Housing performed a recapture of
                 unexpended obligations on expired contracts in the Moderate Rehabilitation
                 housing program totaling approximately $288.6 million, which is up from $171
                 million recaptured in fiscal year 2006. The increase this fiscal year is due to the
                 Office of Public and Indian Housing's revised recapture methodology which
                 addressed several concerns that we expressed in prior years, including that excess
                 reserves be recaptured from fully expired increments first, then followed by
                 reserves from active funding increment lines. Since all funding increment lines
                 are now subject to recapture, our review did not reveal any additional excess
                 budget authority that should be recaptured.

                 During fiscal year 2007, the Office of Public and Indian Housing performed an
                 analysis of budget authority for the Section 8 tenant-based program and
                 recaptured approximately $76.9 million of unexpended budget authority. These
                 funds were generated, primarily, by recapturing the remaining funds for fiscal
                 year 2004 and prior years. As of January 1, 2005, PIH requires the housing
                 authorities to account for their over and under payments of funds in a Net
                 Restricted Assets Account, and the balances are no longer reflected in the
                 Department’s general ledger. As a result, the Voucher Program no longer
4
 For additional details pertaining to the deficiencies in HUD’s Section 8 project-based accounting system, see the
Significant Deficiency: HUD Needs to Improve its Budgeting and Funds Control Over Section 8 project-based
Contracts.


                                                        17
        accounts for receivables and payables resulting from the year-end settlement
        verification process and the use of housing authority reserve accounts has been
        eliminated. Thus, the last official recapture was made for the Housing Choice
        Voucher Program in fiscal year 2006. The only funds recaptured for this program
        this fiscal year were those funds that were unavailable for recapture in fiscal year
        2006.

Administrative/Other Program
Obligations


        Requests for obligation reviews were forwarded by the Chief Financial Officer to
        the program and administrative offices. The focus of the review was on program
        obligations that exceeded a balance of $285,507 and administrative obligations
        that exceeded $20,130. Excluding the Section 8 and Section 235/236 programs,
        which undergo a separate review process by the program offices, the total dollar
        amount of obligations identified for review in fiscal year 2007 totaled $605.5
        million. Of that $605.5 million, HUD identified 2,890 transactions totaling $55.9
        million for potential deobligation. We tested the 2,890 obligations above the
        Department’s review thresholds to determine whether the associated $55.9 million
        balances had been deobligated in HUD’s Central Accounting and Program
        Accounting System. We found that, as of September 30, 2007, a total of 51
        transactions with obligation authority of $7.2 million had not been deobligated.
        The Department has initiated a process of closing these contracts and the
        associated funding should be recaptured in fiscal year 2008. We noted a
        concerted effort made by HUD during fiscal year 2007 to closeout contracts and
        deobligate excess contract funds.


   Rent Supplement and Rental
   Assistance Payments


        HUD is not recapturing excess undisbursed contract authority from the Rent
        Supplement and Rental Assistance Payments programs in a timely manner. HUD
        still needs to emphasize the periodic review of undisbursed contract authority
        from the Rent Supplement and Rental Assistance Payments programs to ensure
        the timely recapture of excess funds.

        The Rent Supplement and Rental Assistance Payments programs were created
        around 1965 and 1974, respectively. The Rent Supplement program and Rental
        Assistance Payments operate much like the current project-based Section 8 rental
        assistance program. Rental assistance is paid directly to multi-family housing
        owners on behalf of eligible tenants

        HUD’s subsidiary ledgers show, for each fiscal year, the amount authorized for
        disbursement and the amount that was disbursed under each project account.


                                         18
    Funds remain in these accounts until they are paid out or deobligated by the
    accounting department. If the funds are not paid out or deobligated, the funds
    remain on the books, overstating the required contract authority.

    Our review showed that HUD developed and implemented procedures in fiscal
    year 2006 to review quarterly the programs and associated contract authority
    requirements. However, HUD still needs to emphasize and complete its reviews.
    We performed a review of unliquidated obligations for the multifamily projects
    accounts under the Rent Supplement and Rental Assistance programs. Our
    review found $132.7 million in undisbursed contract authority from prior fiscal
    years on 55 multifamily projects that should be recaptured. These projects had
    been terminated, converted to Section 8, or opted out of the programs, but their
    associated undisbursed funds had not been recaptured. HUD processed
    adjustments to deobligate this $132.7 million of excess undisbursed contract
    authority for Rent Supplement and Rental Assistance Payment programs in fiscal
    year 2007.


Section 236 Interest Reduction Program


    The budget authority related to the Section 236 Interest Reduction Program is
    included in the Statement of Budgetary Resources. This program is not
    considered a major program and is categorized as one of HUD’s “other programs”
    in the various consolidating financial statements. The Section 236 Interest
    Reduction Program was created under the National Housing Act, as amended, in
    1968, and new activity was ceased during the mid-1970s. The contracts entered
    into were typically up to 40 years in duration and more than 3,100 contracts
    remain active. The activities carried out by this program include making interest
    reduction payments directly to mortgage companies on behalf of multifamily
    project owners. The obligations were established based upon permanent
    indefinite appropriation authority and HUD was obligated to fund these contracts
    for their duration. At the time it entered into the contracts, HUD was to record
    obligations for the entire amount. Because of the age of the records and the
    absence of sound financial practices at the time the program was active, HUD has
    been forced to use the best information available to compute estimated future
    payments to be made over the life of the loans. These estimates are the basis for
    HUD’s current recorded obligation balances necessary to fully fund the contracts
    to their expiration. HUD adjusts the recorded obligations as it proceeds through
    the term of the contracts in order to reflect better estimates of the financial
    commitment. Factors that can change the budgetary requirements over time
    include contract terminations, refinancing, and restructuring.

    Deficiencies in the Section 236 Interest Reduction Program have been reported by
    OIG in prior reports on the financial statements. The Offices of Housing and the
    Chief Financial Officer have been hampered by historically poor record keeping
    in their attempt to accurately account for unexpended Section 236 Interest



                                    19
Reduction Program budget authority balances. In recent years, OIG noted that
HUD made a series of corrective actions to address these deficiencies.

In response to fiscal year 2004’s OIG report and OMB concerns, the Department
initiated a contract-by-contract review in August 2005 to identify underreported,
as well as over reported balances, and support the Section 236 contract and budget
authority. In 2006, HUD developed and implemented procedures for quarterly
reconciling of its obligation account. This action resulted in HUD identifying
potential recaptures of $204 million from 169 contracts that were either
terminated or prepaid. HUD also completed a contract-by-contract review of 51
projects with contract terms that HUD had previously assumed were 50 years.
Based on this review, HUD revised the contract terms for all of the 51 projects
from 50 years to an average 41 years, which resulted in HUD deobligating $118
million for the 51 projects.

This year’s OIG review of the Interest Reduction Program noted continuing
progress in HUD's processes for reviewing obligations. In response to last year's
OIG report, HUD completed a reconciliation review with service providers for
266 contracts, which resulted in HUD identifying and deobligating over $69
million of excess obligation balances. However, our review disclosed that further
improvements in HUD’s processes are needed to ensure Section 236 IRP
obligations are valid and can be more accurately estimated and reported.

We identified 16 inactive Section 236 Interest Reduction Program contracts with
over $5.5 million in excess contract and budget authority that could be
deobligated. These 16 contracts had been prepaid and terminated from the
program. HUD agreed and processed adjustments to deobligate $4.0 million in
fiscal year 2007 and plan to deobligate $1.5 million in fiscal year 2008.

In addition, we identified 20 contracts with overestimated funding requirements
of $13.6 million. This total includes $4.9 million for 16 duplicate contracts that
were recorded in the subsidiary ledger and $8.7 million associated with 4
contracts with inaccurate payment schedules. HUD agreed and processed
adjustments to deobligate $6.3 million in fiscal year 2007 and plans to deobligate
the remaining balance of $7.3 million in fiscal year 2008 for two contracts with
inaccurate payment schedules.

Moreover, we identified an invalid project designated in HUD's subsidiary ledger
as project "999999." An account balance of $11.2 million was shown in the
subsidiary leader as an obligation for project "999999," but it was not tied to any
specific valid contracts. HUD used obligated balances in this account to fund
adjustments resulting from a contract review it implemented in fiscal year 2006.
While the contract review was almost complete, and the need for this account had
diminished in fiscal year 2007, HUD retained the obligated balances in this
account, resulting in an overstatement of the required contract authority for the
Section 236 Interest Reduction Payment program. HUD agreed that balances in
project "999999" were not supported by any valid contract and processed an



                                20
               adjustment to deobligate the unsupported balance of $11.2 million in this account
               in fiscal year 2007.

       The deficiencies in the Section 236 program occurred because of the dynamics of the
       program, including continuing unpredictable changes in project status, which rendered
       HUD's recently implemented quarterly contract review procedure as ineffective in
       providing timely monitoring updates on the project status. HUD needs to improve its
       quarterly contract reconciliation procedure by including a periodic review of its
       subsidiary ledgers to ensure that contract and budget authority for the Section 236
       Interest Reduction Program are valid and estimates are accurately reported.

       For the Department’s administrative and other program funds, HUD needs to promptly
       perform contract closeout reviews and recapture the associated excess contract authority
       and imputed budget authority. In addition, HUD needs to address data and systems
       weaknesses to ensure that all contracts are considered in the recapture/shortfall budget
       process including Rent Supplement and Rental Assistance Programs.

With respect to project-based Section 8 contracts, we recommended in our audit of the
Department’s fiscal year 1999 financial statements that systems be enhanced to facilitate timely
closeout and recapture of funds. In addition, we recommended that the closeout and recapture
process occur periodically during the fiscal year, and not just at year-end. Implementation of the
recommendations is critical so that excess budget authority can be recaptured in a timely manner
and considered in formulating requests for new budget authority.




Significant Deficiency: Controls over HUD’s Computing Environment Can Be
Further Strengthened
HUD’s computing environment, data centers, networks, and servers provide critical support to
all facets of the Department’s programs, mortgage insurance, servicing, and administrative
operations. In prior years, we reported on various weaknesses with general system controls and
controls over certain applications, as well as weak security management. These deficiencies
increase risks associated with safeguarding funds, property, and assets from waste, loss,
unauthorized use, or misappropriation.

We evaluated selected information systems general controls of the Department’s computer
systems on which HUD’s financial systems reside. Our review found information systems
control weaknesses that could negatively affect the integrity, confidentiality, and availability of
computerized data. Presented below is a summary of the control weaknesses found during the
review.




                                                 21
                                       Entity-wide Security Program

        HUD has made strides toward implementing a compliant entity wide security program as
        required by the Federal Information Security Management Act of 2002 (FISMA). HUD
        has developed guidance, conducted meetings and provided training to program officials
        to ensure security policies are properly implemented at the program and system level.
        However, additional progress is needed. Specifically, we found that:



        HUD’s Certification and Accreditation Process Needs Further Improvement.

        While HUD has made progress on updating security plans and risk assessments for major
        applications, and correcting security weaknesses for general support systems, HUD’s
        certification and accreditation process needs further improvement. For example,

        •    In fiscal year 2007, HUD made significant changes to two general support systems;
             however, HUD did not perform a full test of the implemented security controls.
             Further, HUD did not perform a security impact assessment on these changes or
             update related security documents to reflect these changes.

        •    HUD placed systems into production before they were fully certified and accredited,
             and before a comprehensive assessment of the management, operational and technical
             controls in the systems was completed.

        •    HUD did not ensure that all non-major applications were covered by the certification
             and accreditation of the underlying general support system, and did not document the
             additional required security controls for these non-major applications.

        •    HUD’s major applications still have many delayed weaknesses with no corrective
             action plan and/or new projected completion dates. There are weaknesses that remain
             open since fiscal year 2003.

        Additional Actions are Needed to be in Full Compliance with Federal Information
        Security Requirements.

        •    HUD’s Office of Information Technology Security identified 195 HUD systems that
             require an e-authentication risk assessment5. However, HUD program offices and


5
  E-authentication is the process of establishing confidence in user identities electronically presented to an
information system. To successfully implement a government service electronically (or e-government), Federal
agencies must determine the required level of assurance in the authentication for each transaction. This is
accomplished through a risk assessment for each transaction. The assessment identifies risks and their likelihood of


                                                        22
             system owners have not completed e-authentication risk assessments for 149 systems,
             of which 33 are financial management systems.

         •   HUD has not fully implemented all technical controls required by the Office of
             Management and Budget (OMB) to protect personally identifiable information.6 The
             technical controls include encryption for laptops and two-factor authentication on all
             enterprise remote access solutions.

         •   HUD has not disconnected obsolete systems from HUD’s network and removed these
             systems from HUD’s inventory of automated systems in a timely manner. In
             addition, we noted that system owners did not include a system in HUD’s inventory
             of automated systems even though the system contains personally identifiable
             information. This issue was reported in OIG’s audit report number 2007-DP-0006,
             “Review of HUD’s Personal Identity Verification and Privacy Program,” dated
             August 28, 2007.

         •   HUD did not ensure that systems containing personally identifiable information were
             categorized as moderate or high-risk impact level, as required by OMB Memorandum
             M-07-16 “Safeguarding Against and Responding to the Breach of Personally
             Identifiable Information.” In addition, HUD did not report every incident involving
             personally identifiable information to the United States Computer Emergency
             Readiness Team (US-CERT) within one hour of discovering the incident.

         •   Additional details can be found in a previously issued OIG memorandum, Audit
             Memorandum No. 2007- DP-0801, “OIG Response to Questions from the Office of
             Management and Budget under Federal Information Security Management Act of
             2002,” dated September 28, 2007. We also plan to issue a separate detailed audit
             report on HUD’s entity-wide security program.


                                    HUD’s Network Environment
         A number of weaknesses in HUD’s network security were found during a vulnerability
         assessment performed by the OIG. We concluded from our assessment that, although
         HUD has implemented controls to protect its network from external intruders; internal
         testing identified security configuration and technical control deficiencies. For example,
         we found that:



occurrence. Source: OMB Memorandum M-04-04, “E-Authentication Guidance for Federal Agencies,” dated
December 16, 2003
6
  The term Personally Identifiable Information means any information about an individual maintained by an agency,
including, but not limited to, education, financial transactions, medical history, and criminal or employment history
and information which can be used to distinguish or trace an individual's identity, such as their name, social security
number, date and place of birth, mother’s maiden name, biometric records, etc., including any other personal
information which is linked or linkable to an individual. Source: OMB Memorandum M-06-19, “Reporting
Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments,” dated July 12, 2006


                                                          23
        •    Adequate controls were not in place to restrict access to sensitive network and
             security information on several systems,

        •    Not all vulnerabilities on targeted HUD workstations were patched,

        •    User accounts inactive for more than 90 days were not disabled or removed, and

        •    Configurations were not adequately set to limit access to HUD’s internal network.

        If proper access controls are not in place, there is no assurance that HUD would be able
        to protect against the unauthorized disclosure, modification, or destruction of the data
        residing in these systems.



                          Unisys Performance and Security Controls
        HUD has not implemented sufficient controls over its Unisys 2200 Operating System and
        is not in full compliance with applicable federal laws and guidelines. Based on our
        review, we determined the following areas need to be addressed:

        •    We found that HUD does not have a technical baseline7 that specifically addresses
             security controls for its Unisys 2200 operating systems, and the security plan is not
             current. Specifically: (1) HUD follows a security technical implementation guide that
             has not been tailored to the HUD environment; (2) the vendor security checklist8 has
             not been approved, is incomplete, and does not provide detailed guidance to
             implement HUD’s policy and procedures in regard to the Unisys operating systems;
             and (3) the system security plan is not current.

        •    HUD’s security log management process needs improvement. Without adequate
             security log management process controls in place, HUD cannot maintain an
             inclusive history of events and it will not be able to effectively perform audits and
             forensic and operational trend analyses, or identify long-term problems, all of which
             could help establish or improve security controls.

        •    User access controls over the Unisys mainframe general support systems do not
             adequately protect the systems from unauthorized modification, disclosure, loss, or
             loss of data.




7
  National Institute of Standards and Technology Special Publications 800-70, “Security Configuration Checklists
Program for IT Products – Guidance for Checklists Users and Developers.” states that the checklist environment
supports baseline technical security practices which are based on commonly accepted technical security principles
and practices, catalogued in various NIST Special Publications.
8
  A security configuration checklist (sometimes referred to as a lockdown guide, hardening guide, security guide,
security technical implementation guide [STIG], or benchmark) is essentially a document that contains instructions
or procedures for configuring an IT product to an operational environment.


                                                        24
          •   The system file that supports the System for Tape Administration and Reporting
              (STAR-1100)9 is not adequately protected from unauthorized modifications. The
              STAR-1100 is crucial for systems that are not considered mission critical because
              they rely on the backup tapes to restore their data.



                                         HUD Procurement System

          In fiscal year 2006, we reported that the HUD Procurement System and HUD Small
          Purchase System lacked sufficient financial data to effectively manage and monitor
          procurement transactions. Adequate controls had not been established to ensure that: (1)
          all parties to an acquisition transaction were identified; (2) users did not exceed their
          procurement authority; and (3) only users with procurement authority were authorizing
          the recording of the obligation of funds within the system interface with HUDCAPS.
          Additionally, the Office of the Chief Procurement Officer was bypassing certain built-in
          separation of duties controls within the HPS such that application and system
          administrator personnel were inappropriately performing security administration
          functions. We also reported that HUD’s Office of the Chief Procurement Officer had not
          designed or implemented information security controls or ensured that its information
          security responsibilities were fulfilled as required by FISMA and HUD’s information
          technology security policies and procedures. An OIG audit report detailing these
          problems was issued January 25, 2007.10

          In our follow up review of the reported weaknesses, we determined that HUD has made
          progress in implementing effective controls over its procurement system. For instance,
          HUD issued a policy memorandum requiring a contracting officer to validate all contract
          data in both the HUD Procurement System and HUD Small Purchase System, as well as
          the contract obligations in HUDCAPS. HUD also administratively separated the security
          and system administration functions. Additionally, HUD designated a manager to
          assume responsibility for ensuring the Office of the Chief Procurement Officer’s
          compliance with federal certification and accreditation process requirements and to
          provide “continuous monitoring” of the office’s information systems security. However,
          additional work is needed to ensure that all parties to an acquisition transaction are
          identified, and that all information technology security responsibilities are fulfilled.



                                       HUD’s Financial Systems
          As part of our review of HUD's information systems controls in support of the fiscal year
          2007 financial statements audit, we evaluated information security controls over

9
  STAR-1100 is a commercial product that provides automated tape management capabilities. It manages backup
tapes for applications and general support systems. Features include tape inventory, scratch and clean functions,
vault management for off-site purposes, an interface with automated cartridge systems (robotic silos), and a variety
of management reports.
10
     Audit Report No. 2007-DP-0003, Review of HUD’s Procurement Systems


                                                         25
HUDCAPS, LOCCS and the Financial Data Mart, three of HUD’s financial systems. We
identified control weaknesses that could negatively affect the integrity, confidentiality,
and availability of computerized financial data.

                                     LOCCS

We found that the controls over the LOCCS user recertification process were not
effective to verify the access of all users. Systemic deficiencies led to the omission of
more than 10,000 users from the LOCCS recertification process. An additional 199 users
had last recertification dates within the application prior to March 31, 2006, indicating
that they also were not included in the fiscal year 2007 recertification process.

                                    HUDCAPS

The Office of the Chief Financial Officer granted two contractors/developers above
READ access to the HUDCAPS production data stored within the mainframe
environment without documenting either their acceptance of the risks associated with or
the justification for this access level. The documentation to support this access was not
maintained by the system owner, and acceptance of the risks associated with this access
level was not documented in the system security plan. Additionally, neither of the two
developers received the required level of background investigation. One developer
received only a minimum background investigation. The other developer was not
investigated at all.

                               Financial DataMart

The Office of the Chief Financial Officer identified and reported that an unauthorized
individual had access to sensitive data that was not needed to perform assigned duties. In
June 2007, it was determined that an unauthorized individual was accessing production
data from the Financial DataMart using an application’s login ID and password. In
addition, the password assigned to the application login ID did not conform to HUD’s
password policy.

All users with access to the HUD Web can access and generate reports containing
proprietary financial data maintained within the Financial DataMart. The Financial
DataMart contains proprietary financial data related to HUD and its business partners.
The Financial DataMart also contains personally identifiable information such as names,
addresses, social security numbers, and bank account numbers. Although the Office of
the Chief Financial Officer identified the users that required access to the data, they did
not limit access to only those individuals. In addition, the Office of the Chief Financial
Officer did not adequately assess the risk associated with providing unlimited access to
proprietary financial data.


                    IBM Mainframe z/OS Operating System

During our fiscal year 2006 review of HUD's information systems controls in support of
the financial statements audit, we found that HUD had not implemented sufficient


                                         26
        controls over the IBM mainframe z/OS operating system. For example, HUD had not:
        (1) appropriately implemented physical and logical security controls over the IBM
        mainframe operating system computer consoles; (2) ensured that the most powerful
        administrative authority was assigned only to HUD and contractor personnel who
        required this privilege to perform their jobs; (3) properly managed the powerful top secret
        administrator account; and (4) ensured effective communication between the vendor
        supporting the IBM mainframe, HUD information technology management, and program
        offices regarding IBM operation service disruptions.

        In our follow up review of the reported weaknesses, we determined that HUD has taken
        steps to ensure effective communications with regard to IBM operation service
        disruptions. Additionally, HUD has completed the implementation of physical and
        logical security controls over the IBM mainframe operating system computer consoles.
        However, more work is needed to ensure that the most powerful administrative authority
        is restricted to only those persons who require it to perform their duties, and that the
        administrator account is properly managed.


                                Software Configuration Management

        During our fiscal year 2006 review of HUD's information systems controls in support of
        the financial statements audit, we reviewed HUD’s configuration management11 controls
        to determine whether they were in place and used for all changes. We identified
        weaknesses in the administration of the configuration management tool used for the HUD
        Procurement System. Specifically, (1) release procedures used were not being performed
        correctly, (2) administrators on the Unix operating system had inappropriate access
        privileges to the procurement system, and (3) the configuration management plan had not
        been officially approved and included obsolete and incomplete information.
        Additionally, we found that improvements were needed to ensure that: (1) duties for the
        administration of HUD’s configuration management tools were properly segregated, (2)
        the configuration management function was adequately supported, and (3) configuration
        management procedural documentation clearly specified the roles and responsibilities for
        personnel supporting the configuration management function.

        HUD has made progress in implementing controls to resolve the reported weaknesses.
        Specifically: (1) configuration management procedural documentation was updated to
        clearly define the roles and responsibilities for personnel supporting the configuration
        management function, and department directors were informed of their roles and
        responsibilities; (2) a verification of Unix and Windows administrator privileges was
        performed; and, (3) weekly new release coordination meetings are now being held, and
        status reports of weekly releases are prepared. However, our review indicated that
        weaknesses remain in the areas of support for the Department-wide configuration
        management function, procurement system configuration management plan, and
        procurement system release procedures.


11
  Configuration management is the control and documentation of changes made to a system’s hardware, software
and documentation throughout the development and operational life of the system.


                                                      27
For fiscal year 2007, we reviewed the configuration management plans for several
Federal Housing Administration applications and found that the plans lacked or contained
outdated information for the areas of user access maintenance, configuration management
user access verification and deactivation, obsolete module control, and emergency release
procedure. We also identified additional weaknesses specific to each configuration
management plan reviewed. Details of this finding will be included in our report for our
fiscal year 2007 Review of Information Systems Controls in Support of the Financial
Statements Audit.



                    Contingency Planning and Preparedness

HUD continues to strive to make progress and has taken corrective actions to implement
controls for contingency planning and preparedness. We determined that HUD has taken
actions to improve its information technology contingency planning process, including:
(1) training, drafting guidance, reviewing system contingency plans, and coordinating
with systems owners to ensure that plans reflect current conditions; (2) developing
contingency plans for 92 of 101 major applications; (3) completing 90 risk assessments;
and (4) completion of business impact analyses for all systems. However, our review of
the disaster recovery plan for the contractor-operated data center facility indicates that the
listing of mission critical applications has not yet been updated. A contract modification
is required to update the listing of mission critical applications. This is expected to be
completed by December 31, 2007.


                                 Physical Security

During our fiscal year 2006 review of HUD's information systems controls in support of
the financial statements audit, we found that physical security controls for HUD facilities
were generally in place at the network operations center and the data center, both
maintained by two different contractors. However, we identified three areas of concern
requiring management attention: (1) the contractor did not conduct required annual
shelter-in-place drills at the data center, (2) documentation for the network operations
center was not current, and (3) access controls at both computer facilities needed to be
tightened.

In our follow up review of the previously reported weaknesses, we determined that the
contractor began performing the shelter-in-place drill annually at the data center. We
also determined that the contractor updated its risk assessment documents, security plan
and its physical layout diagram to reflect the current conditions of systems and facilities.
However, while access controls improved at one contractor location, at another location
we found that 11 persons were granted access to the computer room without clear
justification. After we brought this to the contractor’s attention, we were informed that
the unnecessary access was removed.




                                         28
       Additional Actions are Needed to Fully Implement Required Information Security
       Controls

       HUD has not fully implemented the required information security controls needed to
       ensure that its financial systems, data, and assets are adequately protected. In the course
       of conducting our reviews this year, we determined that some retired employees retained
       access to systems and sensitive information due to a lack of compliance with HUD’s
       information security policies. HUD had not complied with department information
       security policies or procedures to ensure that these employees access to sensitive data
       was revoked. While we not able to find evidence that any line items, accounts, or
       transactions were altered or systems were compromised; Federal statutes, requirements,
       and HUD security policies were violated. In this instance, we found that HUD was not in
       compliance with the following information system security control families:

              •       Access Controls
              •       Audit and Accountability
              •       Identification and Authentication
              •       Personnel Security

       Without these controls being fully implemented HUD financial systems are at risk and
       the security over them compromised. We intend to complete our review and issue a
       separate report on information security controls in fiscal year 2008.



Significant Deficiency: Weak Personnel Security Practices Continue to Pose
Risks of Unauthorized Access to the Department’s Critical Financial Systems
For several years, we have reported that HUD’s personnel security practices over access to
critical and sensitive systems have been inadequate. Various deficiencies in HUD’s information
technology personnel security program were found and recommendations were proposed to
correct the problems noted. However, the risk of unauthorized access to HUD’s financial
systems remains a critical issue. We followed up on previously reported information technology
personnel security weaknesses and deficiencies and found that deficiencies still exist.
Specifically:

   •   In prior years, OIG recommended that HUD develop an action plan to fully implement
       the HUD Online User Registration System to ensure that all user data are tracked and
       require system administrators to register users and their access level into this database. In
       response, HUD implemented the Centralized HUD Account Management Process
       (CHAMP) to serve as a data repository and a workflow management component of the
       service desk to ensure requests are forwarded in the proper order to all organizations that
       have a part in approving or assigning user account rights and privileges. This was a
       positive step toward enabling reconciliation between user access records and the
       background investigation records maintained by HUD personnel security. However,
       CHAMP is not a database as recommended, but a repository that contains user requests.


                                                29
    In addition, it only contains data from help desk service tickets processed since January
    2007. Legacy data processed prior to this time is being gathered from different sources
    and manually entered into CHAMP. HUD hopes to have all legacy data entered into
    CHAMP by September 2008.

•   HUD has developed interim procedures to reconcile CHAMP information with the
    database that contains background investigation data for all employees and contractors.
    This reconciliation process is intended to identify users with potentially unauthorized or
    inappropriate access levels to HUD’s systems (e.g. users granted above-read access
    without the appropriate background check). However, the reconciliation is tedious and
    cannot identify all users because it is a manual process, and because CHAMP does not
    contain all user data including legacy data. As a result, some unauthorized users may
    escape detection.

•   Reconciliations to identify users with above-read (query) access to HUD mission-critical
    (sensitive) applications but without appropriate background checks are being routinely
    conducted. However, the general support systems on which these mission-critical
    applications reside are not included in the reconciliations because they are not classified
    as mission-critical. Having access to general support systems typically includes access to
    system tools, which provide the means to modify data and network configurations. We
    identified information technology personnel, such as database administrators and network
    engineers, who have access to these types of system tools, but do not have appropriate
    background checks. These persons were not identified as part of the CHAMP
    reconciliation process because they do not have above-read access to mission-critical
    applications.




                                            30
                    Compliance with Laws and Regulations


HUD Did Not Substantially Comply with the Federal Financial Management
Improvement Act
FFMIA requires auditors to report whether the agency’s financial management systems
substantially comply with the Federal financial management systems requirements, applicable
accounting standards, and support the U.S. Standard General Ledger (SGL) at the transaction
level. We found that HUD was not in substantial compliance with FFMIA because HUD’s
financial management system did not substantially comply with (1) Federal Financial
Management System Requirement and (2) Federal Accounting Standards.

During fiscal year 2007, the Department continued to address its financial management
deficiencies and took steps to bring the agency’s financial management systems into compliance
with Federal Financial Management Improvement Act (FFMIA). However, HUD was unable to
complete any of the planned fiscal year 2007 independent reviews of its financial management
systems to verify compliance with financial system requirements, identify system and procedural
weaknesses, and develop the corrective actions to address identified weaknesses. During fiscal
year 2007, HUD did complete three independent reviews that were planned and initiated in fiscal
year 2006, as well as one unscheduled review.


     Federal Financial Management System
     Requirements

              In its Fiscal Year 2007 Performance and Accountability Report, HUD reports that
              2 of its 42 financial management systems do not comply with the requirements of
              the FFMIA and OMB Circular A-127, Financial Management Systems. Even
              though 40 individual systems have been certified as compliant with federal
              financial management systems requirements, collectively and in the aggregate,
              deficiencies still exist.

              FHA’s auditor reports as a material weakness that FHA’s systems for processing
              Home Equity Conversion Mortgage transactions need improvement. We also
              report as a significant deficiency that HUD Financial Management Systems Need
              to Comply with Federal Financial Management Systems Requirements. The
              material weakness and significant deficiency address how FHA and HUD’s
              financial management systems remain substantially noncompliant with federal
              financial management requirements.

              We continue to report as significant deficiencies that (1) Controls over HUD’s
              Computing Environment Can Be Further Strengthened and (2) Weak Personnel
              Security Practices Continue to Pose Risks of Unauthorized Access to the
              Department’s Critical Financial Systems. These significant deficiencies discuss
              how weaknesses with general controls and certain application controls, and weak


                                              31
               security management increase risks associated with safeguarding funds, property,
               and assets from waste, loss, unauthorized use or misappropriation.

               In addition, OIG audit reports have disclosed that security over financial
               information was not provided in accordance with OMB Circular A-130
               Management of Federal Information Resources, Appendix III and the FISMA.

       Compliance with federal
       accounting standards

               FHA’s auditor reported a material weakness with respect to the HECM program
               credit subsidy cash flow model. The model contained improper calculations
               relating to terminated note recoveries and was not compliant with federal
               accounting standards regarding OMB discounting requirements for cash flow
               models for direct loan and loan guarantee programs.

We have included the specific nature of noncompliance issues, responsible program offices and
recommended remedial actions in Appendix C of this report.


                                         Other Matters

HUD’s Office of the Chief Financial Officer is responsible for investigating and reporting on
violations of the Anti-deficiency Act. As of the conclusion of this audit, the Office of Chief
Financial Officer was investigating 25 potential Antideficiency Act violations. The Chief
Financial Officer made determinations that four cases that occurred during the period 2002
through 2004 are Antideficiency Act violations that warrant reporting to the President, Congress,
and GAO. Two additional cases were under consideration for reporting. As of the date of our
report, no violations have been reported.

OMB Bulletin No. 07-04 requires that we report on discrepancies between management and
independent auditors regarding material weaknesses on internal control over reporting that is not
disclosed in the Agency’s Performance and Accountability Report. HUD and FHA disagreed
with the independent auditor’s assessment that the first two weaknesses in internal controls over
financial reporting described above were material weaknesses. The Department and FHA
reported no material weaknesses when reporting on the Federal Managers’ Financial Integrity
Act in their Fiscal Year 2007 Performance and Accountability Report and the FHA Fiscal Year
2007 Annual Management Report, respectively.




                                               32
APPENDIXES

Appendix A
                      Objectives, Scope, and Methodology

Management is responsible for

   •   Preparing the principal financial statements in conformity with generally accepted
       accounting principles;
   •   Establishing, maintaining and evaluating internal controls and systems to provide
       reasonable assurance that the broad objectives of Federal Managers’ Financial Integrity
       Act are met; and
   •   Complying with applicable laws and regulations.

In auditing HUD’s principal financial statements, we were required by Government Auditing
Standards to obtain reasonable assurance about whether HUD’s principal financial statements
are free of material misstatements and presented fairly in accordance with generally accepted
accounting principles. We believe that our audit provides a reasonable basis for our opinion.

In planning our audit of HUD’s principal financial statements, we considered internal controls
over financial reporting by obtaining an understanding of the design of HUD’s internal controls,
determined whether these internal controls had been placed in operation, assessed control risk,
and performed tests of controls to determine our auditing procedures for the purpose of
expressing our opinion on the principal financial statements and not to provide assurance on the
internal control over financial reporting. Consequently, we do not provide an opinion on internal
controls. We also tested compliance with selected provisions of applicable laws and regulations
that may materially affect the consolidated principal financial statements. Providing an opinion
on compliance with selected provisions of laws and regulations was not an objective and,
accordingly, we do not express such an opinion.

We considered HUD’s internal control over Required Supplementary Stewardship Information
reported in HUD’s Fiscal Year 2007 Performance and Accountability Report by obtaining an
understanding of the design of HUD’s internal controls, determined whether these internal
controls had been placed in operation, assessed control risk, and performed tests of controls as
required by OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements and not
to provide assurance on these internal controls. Accordingly, we do not provide assurance on
such controls.

With respect to internal controls related to performance measures to be reported in the
Management’s Discussion and Analysis and HUD’s Fiscal Year 2007 Performance and
Accountability Report, we obtained an understanding of the design of significant internal
controls relating to the existence and completeness assertions, as required by OMB Bulletin
07-04. Our procedures were not designed to provide assurance on internal control over reported
performance measures and, accordingly, we do not provide an opinion on such controls.




                                               33
To fulfill these responsibilities, we

   •   Examined, on a test basis, evidence supporting the amounts and disclosures in the
       consolidated principal financial statements;
   •   Assessed the accounting principles used and the significant estimates made by
       management;
   •   Evaluated the overall presentation of the consolidated principal financial statements;
   •   Obtained an understanding of internal controls over financial reporting, executing
       transactions in accordance with budget authority, compliance with laws and regulations,
       and safeguarding assets;
   •   Tested and evaluated the design and operating effectiveness of relevant internal controls
       over significant cycles, classes of transactions, and account balances;
   •   Tested HUD’s compliance with certain provisions of laws and regulations,
       noncompliance with which could have a direct and material effect on the determination
       of financial statement amounts and certain other laws and regulations specified in OMB
       Bulletin 07-04, including the requirements referred to in the Federal Managers’ Financial
       Integrity Act;
   •   Considered compliance with the process required by the Federal Managers’ Financial
       Integrity Act for evaluating and reporting on internal control and accounting systems; and
   •   Performed other procedures we considered necessary in the circumstances.

We did not evaluate the internal controls relevant to operating objectives as broadly defined by
the Federal Managers’ Financial Integrity Act. We limited our internal control testing to those
controls that are material in relation to HUD’s financial statements. Because of inherent
limitations in any internal control structure, misstatements may nevertheless occur and not be
detected. We also caution that projection of any evaluation of the structure to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or
that the effectiveness of the design and operation of policies and procedures may deteriorate.

Our consideration of the internal controls over financial reporting would not necessarily disclose
all matters in the internal controls over financial reporting that might be significant deficiencies.
We noted certain matters in the internal control structure and its operation that we consider
significant deficiencies under OMB Bulletin 07-04. Under standards issued by the American
Institute of Certified Public Accountants, a significant deficiency is a deficiency in internal
control, or a combination of deficiencies, that adversely affects HUD’s ability to initiate,
authorize, record, process, or report financial data reliably in accordance with generally accepted
accounting principles such that there is more than a remote likelihood that a misstatement of the
entity’s financial statements that is more than inconsequential will not be prevented or detected.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
result in a more than remote likelihood that a material misstatement of the financial statements
will not be prevented or detected.

Our work was performed in accordance with generally accepted Government Auditing Standards
and OMB Bulletin 07-04.

This report is intended solely for the use of HUD management, OMB and the Congress.
However, this report is a matter of public record and its distribution is not limited.


                                                 34
Appendix B
                                   Recommendations



To facilitate tracking recommendations in the Audit Resolution and Corrective Action Tracking
System, this appendix lists the newly developed recommendations resulting from our report on
HUD’S fiscal year 2007 financial statements. Also listed are recommendations from prior years’
reports that have not been fully implemented. This appendix does not include recommendations
pertaining to FHA and Ginnie Mae issues because they are tracked under separate financial
statement audit reports of that entity.

                     Recommendations from the Current Report
With respect to the significant deficiency that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Chief Financial Officer in coordination with the
appropriate program offices:

       1.a.   Deobligate $342.3 million of excess unexpended funds identified as a result of the
              fiscal year 2007 financial statement audit.

       1.b.   Improve the quarterly contract reconciliation procedure currently being
              implemented by performing periodic reviews of subsidiary ledgers to ensure that
              Section 236 obligations reported are valid and can be more accurately estimated
              and reported.

       1.c.   Implement a periodic review of terminated Rent Supplement and Rental
              Assistance Payments projects to ensure changes in contract status are timely
              identified and excess undisbursed contract authority is recaptured in a timely
              manner.

With respect to the significant deficiency that HUD needs to improve its budgeting and funds
control over section 8 project-based contracts, we recommend that the Assistant Secretary for
Housing in coordination with the Chief Financial Officer and the Chief Information Officer:

       2.a    Develop a long-term financial management system solution to streamline and
              automate the overall Section 8 project-based budgeting, payment, and contract
              management process.

       2.b    Consider revising current Section 8 Project-base recapture methodology to
              include recapturing funds from expired Section 8 contracts occurring in the
              current fiscal year. We found that HUD could have recaptured up to $580 million
              from these expired contracts, in lieu of recapturing funds from active long-term
              contracts.



                                               35
       2.c.   Perform a detail review to ensure that PAS data on Section 8 project-based
              contracts used to compute obligation balances is accurate and reliable.



         Unimplemented Recommendations from Prior Years’ Reports

Not included in the recommendations listed above are recommendations from prior years’
reports on the Department’s financial statements that have not been fully implemented based on
the status reported in the Audit Resolution and Corrective Action Tracking System. The
Department should continue to track these under the prior years’ report numbers in accordance
with departmental procedures. Each of these open recommendations and its status is shown
below. Where appropriate, we have updated the prior recommendations to reflect changes in
emphasis resulting from recent work or management decisions.

OIG Report Number 2004-FO-0003 (Fiscal Year 2003 Financial Statements)

With respect to the reportable condition that controls over project-based subsidy payments need
to be improved, we recommend that the Deputy Assistant Secretary for Multifamily Housing in
coordination with Financial Management Center Director:

       3.a.   Initiate corrective action to address the underlying causes for the erroneous
              payment resulting from billing errors, such as the intermediaries’ failure to
              accurately report or maintain required subsidy determination documentation, and
              bookkeeping and procedural errors. (Final action target date is October 15, 2007.)

       3b.    Establish controls over the HUD-administered project-based Section 8 payment
              process at FMC to comply with Title VII of the GAO Policy and Procedures
              Manual for Guidance of Federal Agencies. (Final action target date is October
              15, 2007.)

       3.c.   Establish criteria to enforce the accuracy of the data submitted through TRACS.
              (Final action target date is October 15, 2007.)

OIG Report Number 2007-FO-0003 (Fiscal Year 2006 Financial Statements)

With respect to the reportable condition that HUD needs to improve the process for reviewing
obligation balances, we recommend that the Chief Financial Officer in coordination with the
appropriate program offices:

       1.a.   Deobligate all excess unexpended funds identified as a result of the fiscal year
              2006 audit of financial statements. (Final action target date is October 31, 2007)




                                               36
Appendix C

Federal Financial Management Improvement Act Noncompliance,
Responsible Program Offices, and Recommended Remedial Actions

This Appendix provides details required under Federal Financial Management Improvement Act
(FFMIA) reporting requirements. To meet those requirements, we performed tests of
compliance using the implementation guidance for FFMIA issued by OMB and GAO’s Financial
Audit Manual. The results of our tests disclosed that HUD’s systems did not substantially
comply with the foregoing requirements. In addition, we found noncompliance with federal
accounting standards. The details for our basis of reporting substantial noncompliance,
responsible parties, primary causes and the Department’s intended remedial actions are included
in the following sections.

Federal Financial Management Systems Requirements
1. HUD’s annual assurance statement issued pursuant to Section 4 of the Financial Manager’s
Integrity Act, will report two non-conforming systems12.

          The organizations responsible for systems that were found not to comply with the
          requirements of OMB Circular A-127 based on the Department’s assessments are as
          follows:

      Responsible Office                               Number of Systems     Non-conforming Systems
      Office of Housing                                       19                        0
      Office of Chief Financial Officer                       15                        0
      Office of Administration                                 2                        0
      Office of Chief Procurement Officer                      2                        2
      Office of Community Planning and Development             2                        0
      Office of Public and Indian Housing                      1                        0
      Government National Mortgage Association                 1                        0
      Totals                                                  42                        2




12
     The two-nonconforming systems are: A35-HUD Procurement System and P035-Small Purchase System.


                                                     37
     The following section outlines the Department’s plan to correct noncompliance with OMB
     Circular A-127.

                           Office of the Chief Procurement Officer

                           A35 HUD Procurement Systems (HPS)
                            P035 Small Purchase System (SPS)

  Noncompliance Issue(s)                           Tasks/Steps                              Target Dates   Completion
                                             (including Milestones)                                          Dates
INTERNAL CONTROLS
                            Intermediate Resolution Plan

1. HUD’s Procurement        1A Review transactions of the four contracting officers         COMPLETED      COMPLETED
   Systems Do Not Have         who input records in excess of their contract authority
   Adequate Controls for       and take actions as appropriate.
   Monitoring the               • OCPO researched the transactions in question to           12/23/2006     12/14/2006
   Procurement Process            determine if the obligations were appropriate or
                                  not.
                                • OCPO determined that the transactions were                3/31/2007      12/14/2006
                                  properly executed by contracting officers acting
                                  within their authority. No further action is
                                  necessary.

                            1B   Implement system controls to ensure that contracting
                                 officers are not able to exceed their procurement
                                 authority.
                                  • The OCPO will implement procurement authority           3/31/2007
                                     control procedures.                                    Revised to
                                                                                            12/31/2007
                                  • The OCPO will include validation of contracting
                                                                                            Commencing     1/08/2007
                                    officer authority as part of each Procurement
                                                                                            1/8/2007       On-Going
                                    Management Review.

                            1C   Implement controls to ensure that contracting officers     COMPLETED      COMPLETED
                                 are required to either input or approve all transactions
                                 that record funds through the HUDCAPS interfaces.
                                  • The OCPO will implement procedural controls to
                                     require contracting officers to validate               4/30/2007      4/25/2007
                                     transactions in HPS.

                            1D Modify the systems to make the contracting officer field
                               mandatory.
                                • The OPOC will implement procedures for
                                  electronic records, which are recorded in HPS, are        4/30/2007
                                  reviewed to ensure that a Contracting Officer is          Revised to
                                  identified for each record.                               12/31/2007
                                • The OCPO will implement validation of the
                                  contracting officer identification as part of each        4/30/2007
                                  Procurement Management Review. – See 1B                   Revised to
                                  bullet 2 above. Validation of contracting                 12/31/2007
                                  authority is the same as implementation of task.



                                                  38
  Noncompliance Issue(s)                            Tasks/Steps                          Target Dates   Completion
                                              (including Milestones)                                      Dates
                            NOTE: OCPO is in the process of conducting a cost
                            benefit analysis, whose outcome will determine the best
                            course of action in implementing system changes or
                            replacing systems.

2. HUD Procurement          2A Ensure that system administration and security            COMPLETED      COMPLETED
   Systems’ Separation of      administration functions are separate.
   Duties Controls Were          • The OPCO will formally appoint separate               4/16/2007      05/01/2007
   Bypassed                        individuals to act as security administrator and
                                   system administrator for each OCPO system and
                                   that the individuals will not be performing
                                   conflicting duties.

                            2B Ensure that staff is not assigned conflicting duties,
                                                                                         COMPLETED      COMPLETED
                               that separate functions are performed by separate
                               individuals, and that the concept of least privilege is
                               applied.
                                 •      OCPO will determine if multiple system
                                    profiles are actually a valid requirement on an
                                    individual basis in HPS. The goal is to eliminate
                                    unnecessary and redundant profiles in HPS and
                                    that the individuals will not be performing
                                    conflicting duties.
                                        o The OCPO will identify users with
                                                                                         2/15/2007      12/21/2006
                                             multiple HPS profiles
                                        o The OCPO will deactivate
                                                                                         07/31/2007     07/19/2007
                                             unnecessary/redundant profiles

                            NOTE: While we can separate the duties procedurally, the
                            separation cannot be enforced in HPS or SPS without
                            reprogramming.

                            2C Implement formal policies and procedures to               COMPLETED      COMPLETED
                               recertify the access granted to users at least an [sic]
                               annually.
                                 • The OCPO will develop and implement formal
                                   procedures for granting access by using the
                                   concept of least privilege to OCPO systems, as
                                   well as annual user access reviews by:
                                        o Revise system access request forms             1/31/2007      12/31/2006
                                        o Revise process in which user requests          2/28/2007      1/31/2007
                                            system access
                                        o Revise procedure in which system               3/31/2007      1/31/2007
                                            access is granted
                                        o Develop formal procedure to enforce            06/30/2007     07/18/2007
                                            annual user access review

                            2D Create and implement routing functionality within
                               the Small Purchase System to allow users to be
                               granted access to more than one office or region.
                                   • OCPO recommends implementing the
                                       following tasks to alleviate the routing issue.
                                       OCPO will determine if multiple SPS system
                                       profiles are actually a valid requirement on
                                       an individual basis. The goal is to eliminate



                                                 39
  Noncompliance Issue(s)                                  Tasks/Steps                             Target Dates   Completion
                                                    (including Milestones)                                         Dates
                                               all unnecessary and redundant profiles in
                                               SPS.
                                               o The OCPO will identify users with                2/15/2007
                                                    multiple SPS profiles
                                               o The OCPO will restructure the issuing            8/31/2007      12/21/2006
                                                    office hierarchy to alleviate the necessity   Revised to
                                                    of multiple profiles for a given user.        11/30/2007

                                  NOTE: OCPO is in the process of conducting a cost
                                  benefit analysis, whose outcome will determine the best
                                  course of action in implementing system changes or
                                  replacing systems.

3. HUD’s Procurement              3A Perform a cost benefit analysis to determine whether it
   Systems Do Not Contain            is more advantageous to modify or replace the
   Sufficient Financial Data to      procurement systems to ensure compliance with Joint
   Allow It to Effectively           Federal    Management        Improvement      Program
   Manage and Monitor                Requirements.
   Procurement Transactions           • The OCPO will perform a cost benefit analysis to          05/31/2007
                                        replace the OCPO systems.                                 Revised to
                                                                                                  01/31/2008
                                  3B   Implement functionality to ensure that there is
                                       sufficient information within HUD’s procurement
                                       systems to support the primary acquisition functions of
                                       fund certification, obligation, deobligation, payment,
                                       and closeout.
                                           • Based on the availability of funds, OCPO will
                                                replace its systems with COTS software to
                                                ensure found issues with internal and security
                                                controls are addressed.
                                           • MILESTONES – NOT LATER THAN
                                                • Develop Independent Government                  5/4/2007       05/03/2007
                                                     Estimate
                                                • Conduct Market Research                         04/6/2007      04/06/2007
                                                • Source Selection                                TBD
                                                                                                  10/01/2008
                                                • Roll-out pilot of production system

                                  NOTE: OCPO is in the process of conducting a cost
                                  benefit analysis, whose outcome will determine the best
                                  course of action in implementing system changes or
                                  replacing systems.
SECURITY CONTROLS
4. The Office of the Chief        4A Obtain the training and/or resources necessary to
   Procurement Officer Did           develop or perform compliant (1) information system
   Not Design or Implement           categorization analyses; (2) risk assessments; (3)
   Required Information              security plans; (4) contingency plans and tests; (5)
   Security Controls                 monitoring processes, which include applicable Federal
                                     Information Processing Standards Publication 200
                                     managerial, operational, and technical information
                                     security controls; and (6) evaluations of the managerial,
                                     operational, and technical security controls.

                                        •    OCPO will ensure that training or other resources
                                             are obtained to develop or perform required



                                                        40
Noncompliance Issue(s)                          Tasks/Steps                             Target Dates   Completion
                                          (including Milestones)                                         Dates
                                   managerial, operational, and technical security
                                   controls.                                            12/31/2008
                                   ° Update Risk Assessments                            12/31/2008
                                   ° Update Security Plans                              12/31/2008
                                   ° Update Contingency Plans and tests;
                                                                                        TBD based
                                   ° Monitoring processes, which include                on
                                       applicable Federal Information Processing        coordination
                                       Standards (FIPS) Publication 200                 with OCIO
                                       managerial, operational, and technical
                                       information security controls; and               TBD based
                                   ° Evaluations of the managerial, operational, and    on
                                       technical security controls.                     coordination
                                                                                        with OCIO
                         4B   Complete the corrective actions for the known open
                              information security vulnerabilities or develop
                              mitigation strategies if new system development is
                              underway.
                               • OCPO will ensure it develops mitigation
                                    strategies for the known open information
                                    security vulnerabilities.
                                  ° Review vulnerabilities
                                  ° Develop mitigation strategy                         4/30/2008
                                                                                        7/31/2008
                         4C   Designate a manager to assume responsibility for
                              ensuring the Office of the Chief Procurement Officer’s
                                                                                        COMPLETED      COMPLETED
                              compliance with federal certification and accreditation
                              process requirements and to provide “continuous
                              monitoring” of the office’s information systems
                              security.
                               • OCPO will designate a manager responsible for
                                    ensuring compliance with information systems        1/15/2007      03/13/2007
                                    security and federal certification and
                                    accreditation process.
                               • OCPO will work with OCIO to define roles and
                                    responsibilities and to ensure that appropriate     2/1/2007       2/1/2007
                                    resources are provided to perform required
                                    monitoring and certification and accreditation.




                                              41
Noncompliance Issue(s)                          Tasks/Steps                             Target Dates   Completion
                                          (including Milestones)                                         Dates
                         4D Reevaluate the HUD Procurement System and Small
                            Purchase System application systems’ security
                            categorization in light of OMB guidance on personally
                            identifiable information.
                             • OCPO will reevaluate the HUD Procurement
                                  System and Small Purchase System application          8/31/2007
                                  systems’ security categorization in light of OMB      Revised to
                                  guidance on personal identifiable information.        11/30/2007

                         4E   Perform a Business Impact Analysis (BCA) for the
                              procurement systems. Based on the results of the
                              impact analysis, determine what actions HUD can take
                              to limit the amount of time needed to recover from the
                              various levels of contingencies that can occur and
                              include the determined actions in the contingency plans
                              for the systems.
                               • OCPO will develop a business impact analysis
                                    for the procurement systems and revise the
                                    contingency plan based on the BIA.
                                    ° Develop business impact analyses
                                    ° Incorporate BIA into contingency plans
                                                                                        4/30/2007      05/04/2007
                                                                                        9/30/2007
                         Note: OCPO is in process of conduction a cost benefit          Revised to
                         analysis, whose outcome will determine the best course of      1/31/2008
                         action in implementing system changes or replacing the
                         systems.




                                              42
2. FHA’s auditor disclosed a material weakness and our audit disclosed significant
deficiencies regarding the security over financial information. Similar conditions have also
been noted in other OIG audit reports. We are including security issues as a basis for
noncompliance with FFMIA because of the collective effect of the issue and
noncompliance with Circular A-130, Appendix 3 and the Federal Information Security
Management Act (FISMA). The responsible office, nature of the problem, and primary
causes are summarized below:

Responsible Office        Nature of the Problem

Office of Housing and     FHA’s systems for processing Home Equity Conversion Mortgage (HECM)
CIO                       transactions need improvement.

                          FHA maintains a number of different system platforms for processing
                          HECM endorsements, premiums, claims and notes. These systems are not
                          automatically integrated and require significant compensating manual
                          controls to ensure the accuracy and reliability of financial information being
                          reported in the general ledger. They are not compliant with federal loan
                          financial management system requirements and are not compliant with
                          federal information technology security requirements, including regulations
                          for the safeguarding of personally identifiable information.

These conditions occurred because HUD’s management does not consistently enforce policies and
procedures.

Office of Housing and     FHA system security controls need improvement.
CIO
                          FHA has not yet implemented a federal information security risk
                          management framework in accordance with federal standards. FHA’s
                          information system security officer did not have authority and processes in
                          place to ensure FHA system security met Federal and Departmental
                          requirements. FHA program offices and system owners also did not fully
                          understand their system security responsibilities. FHA has also not yet
                          resolved a number of system vulnerabilities that result in weakened controls
                          over financial system data.

These conditions occurred because HUD’s management does not consistently enforce policies and
procedures, and also because an ineffective organizational authority, insufficient staff resources, and
inadequate training.

Office of Chief           Weaknesses exist in HUD’s entity-wide security program. Specifically:
Information Officer
                          In fiscal year 2007, HUD made significant changes to two general support
                          systems; however, HUD did not perform a full test of the implemented
                          security controls. Further, HUD did not perform a security impact
                          assessment on these changes or update related security documents to
                          reflect these changes.

                          HUD placed systems into production before they were fully certified and
                          accredited, and before a comprehensive assessment of the management,
                          operational and technical controls in the systems was completed.


                                               43
Responsible Office       Nature of the Problem


                         HUD did not ensure that all non-major applications were covered by the
                         certification and accreditation of the underlying general support system,
                         and did not document the additional required security controls for these
                         non-major applications.

                         HUD’s major applications still have many delayed weaknesses with no
                         corrective action plan and/or new projected completion dates. There are
                         weaknesses that remain open since fiscal year 2003.

                         HUD’s Office of Information Technology Security identified 195 HUD
                         systems that require an e-authentication risk assessment. However, HUD
                         program offices and system owners have not completed e-authentication
                         risk assessments for 149 systems, of which 33 are financial management
                         systems.

                         HUD has not fully implemented all technical controls required by the
                         OMB to protect personally identifiable information

                         HUD has not disconnected obsolete systems from HUD’s network and
                         removed these systems from HUD’s inventory of automated systems in a
                         timely manner. We also noted that system owners did not include a
                         system in HUD’s inventory of automated systems even though the system
                         contains personally identifiable information.

                         HUD did not ensure that systems containing personally identifiable
                         information were categorized as moderate or high-risk impact level and
                         did not report every incident involving personally identifiable information
                         to the United States Computer Emergency Readiness Team (US-CERT)
                         within one hour of discovering the incident.

These conditions occurred because HUD’s management does not consistently enforce policies and
procedures.

Office of Chief          A number of weaknesses in HUD’s network security were found during a
Information Officer      vulnerability assessment performed by the OIG. Specifically:

                         Adequate controls were not in place to restrict access to sensitive
                         network and security information on several systems,

                         Not all vulnerabilities on targeted HUD workstations were patched,

                         User accounts inactive for more than 90 days were not disabled or
                         removed,                                                     and

                         Configurations were not adequately set to limit access to HUD’s internal
                         network.
These conditions occurred because HUD’s management does not consistently enforce policies and
procedures.



                                            44
Responsible Office      Nature of the Problem

Office of Chief         We found that HUD does not have a technical baseline that specifically
Information Officer     addresses security controls for its Unisys 2200 operating systems, and the
                        security plan is not current. Specifically: (1) HUD follows a security
                        technical implementation guide that has not been tailored to the HUD
                        environment; (2) the vendor security checklist has not been approved, is
                        incomplete, and does not provide detailed guidance to implement HUD’s
                        policy and procedures in regard to the Unisys operating systems; and (3)
                        the system security plan is not current.

                        HUD’s security log management process needs improvement. Without
                        adequate security log management process controls in place, HUD cannot
                        maintain an inclusive history of events and it will not be able to effectively
                        perform audits and forensic and operational trend analyses, or identify
                        long-term problems, all of which could help establish or improve security
                        controls.

                        User access controls over the Unisys mainframe general support systems
                        do not adequately protect the systems from unauthorized modification,
                        disclosure,        loss,        or         loss        of         data.

                        The system file that supports the System for Tape Administration and
                        Reporting (STAR-1100) is not adequately protected from unauthorized
                        modifications. The STAR-1100 is crucial for systems that are not considered
                        mission critical because they rely on the backup tapes to restore their data.

These conditions occurred because HUD’s management does not consistently enforce policies and
procedures.

Office of Chief         Control weaknesses still exist for HUD Procurement System (HPS) and
Procurement Officer     HUD Small Purchase System (SPS), specifically:

                        Additional work is needed to ensure that all parties to an acquisition
                        transaction are identified, and that all information technology security
                        responsibilities are fulfilled.



These conditions occurred because HUD’s management does not consistently enforce FISMA and
HUD’s information technology security policies and procedures.

Office of Chief         We found that the controls over the LOCCS user recertification process
Information Officer     were not effective to verify the access of all users. Systemic deficiencies
and Office of the       led to the omission of more than 10,000 users from the LOCCS
Chief Financial         recertification process. An additional 199 users had last recertification
Officer                 dates within the application prior to March 31, 2006, indicating that they
                        also were not included in the fiscal year 2007 recertification process.

                        The Office of the Chief Financial Officer granted two
                        contractors/developers above READ access to the HUDCAPS production
                        data stored within the mainframe environment without documenting either
                        their acceptance of the risks associated with or the justification for this


                                            45
Responsible Office        Nature of the Problem

                          access level. The documentation to support this access was not maintained
                          by the system owner, and acceptance of the risks associated with this
                          access level was not documented in the system security plan.
                          Additionally, neither of the two developers received the required level of
                          background investigation. One developer received only a minimum
                          background investigation. The other developer was not investigated at all.

                          The Office of the Chief Financial Officer identified and reported that an
                          unauthorized individual had access to sensitive data that was not needed to
                          perform assigned duties. In June 2007, it was determined that an
                          unauthorized individual was accessing production data from the Financial
                          DataMart using an application’s login ID and password. In addition, the
                          password assigned to the application login ID did not conform to HUD’s
                          password policy.

                          All users with access to the HUD Web can access and generate reports
                          containing proprietary financial data maintained within the Financial
                          DataMart. The Financial DataMart contains proprietary financial data related
                          to HUD and its business partners. The Financial DataMart also contains
                          personally identifiable information such as names, addresses, social security
                          numbers, and bank account numbers. Although the Office of the Chief
                          Financial Officer identified the users that required access to the data, they did
                          not limit access to only those individuals. In addition, the Office of the Chief
                          Financial Officer did not adequately assess the risk associated with providing
                          unlimited access to proprietary financial data.

These conditions occurred because HUD’s management does not consistently enforce policies and
procedures.

Office of Chief           HUD has not implemented sufficient controls over the IBM mainframe z/OS
Information Officer       operating system to ensure that the most powerful administrative authority is
                          restricted to only those persons who require it to perform their duties, and
                          that the administrator account is properly managed.

These conditions occurred because management does not consistently enforce policies and procedures.

Office of Housing         Our review of software configuration management indicated that
                          weaknesses remain in the areas of support for the Department-wide
                          configuration management function, procurement system configuration
                          management plan, and procurement system release procedures.

                          For fiscal year 2007, we reviewed the configuration management plans for
                          several FHA applications and found that the plans lacked or contained
                          outdated information for the areas of user access maintenance, configuration
                          management user access verification and deactivation, obsolete module
                          control, and emergency release procedure. We also identified additional
                          weaknesses specific to each configuration management plan reviewed.

These conditions occurred because management does not consistently enforce policies and procedures.




                                               46
Responsible Office         Nature of the Problem

Office of Chief            Our review of the disaster recovery plan for the contractor-operated data
Information Officer        center facility indicates that the listing of mission critical applications has not
                           yet been updated.

This condition exists because a contract modification is required to update the listing of mission critical
applications. This is expected to be completed by December 31, 2007.

Office of Chief            While access controls improved at one contractor location, at another
Information Officer        location we found that 11 persons were granted access to the computer room
                           without clear justification.

This condition occurred because management does not consistently enforce policies and procedures.

Office of Chief            Personnel security weaknesses still exist, specifically:
Information Officer
                           In prior years, OIG recommended that HUD develop an action plan to
                           fully implement the HUD Online User Registration System to ensure that
                           all user data are tracked and require system administrators to register users
                           and their access level into this database. In response, HUD implemented
                           the Centralized HUD Account Management Process (CHAMP) to serve as
                           a data repository and a workflow management component of the service
                           desk to ensure requests are forwarded in the proper order to all
                           organizations that have a part in approving or assigning user account rights
                           and privileges. This was a positive step toward enabling reconciliation
                           between user access records and the background investigation records
                           maintained by HUD personnel security. However, CHAMP is not a
                           database as recommended, but a repository that contains user requests. In
                           addition, it only contains data from help desk service tickets processed
                           since January 2007. Legacy data processed prior to this time is being
                           gathered from different sources and manually entered into CHAMP. HUD
                           hopes to have all legacy data entered into CHAMP by September 2008.

                           HUD has developed interim procedures to reconcile CHAMP information
                           with the database that contains background investigation data for all
                           employees and contractors. This reconciliation process is intended to identify
                           users with potentially unauthorized or inappropriate access levels to HUD’s
                           systems (e.g. users granted above-read access without the appropriate
                           background check). However, the reconciliation is tedious and cannot
                           identify all users because it is a manual process, and because CHAMP does
                           not contain all user data including legacy data. As a result, some
                           unauthorized users may escape detection.




                                                47
Responsible Office        Nature of the Problem

Office of Chief           Reconciliations to identify users with above-read (query) access to HUD
Information Officer       mission-critical (sensitive) applications but without appropriate background
                          checks are being routinely conducted. However, the general support systems
                          on which these mission-critical applications reside are not included in the
                          reconciliations because they are not classified as mission-critical. Having
                          access to general support systems typically includes access to system tools,
                          which provide the means to modify data and network configurations. We
                          identified information technology personnel, such as database administrators
                          and network engineers, who have access to these types of system tools, but
                          do not have appropriate background checks. These persons were not
                          identified as part of the CHAMP reconciliation process because they do not
                          have above-read access to mission-critical applications.


These conditions occurred because CHAMP currently does not include all legacy data processed prior to
this time. The legacy data is being gathered from different sources and manually entered into CHAMP.
HUD hopes to have all legacy data entered into CHAMP by September 2008. However, user access
levels for general support systems are not included in the CHAMP reconciliation process because
general support systems are not classified as mission-critical.




                                              48
                          Federal Accounting Standards

A material weakness was reported by the FHA’s auditor with respect to the HECM program
credit subsidy cash flow model. The model contained improper calculations relating to
terminated note recoveries and was not compliant with federal accounting standards
regarding OMB discounting requirements for cash flow models for direct loan and loan
guarantee programs. FHA adjusted the financial statements to reflect the material
adjustments to the related Liability for Guaranteed Loans caused by the error.




                                        49
Appendix D

                SCHEDULE OF QUESTIONED COSTS
                 AND FUNDS PUT TO BETTER USE

 Recommendation          Ineligible 1/    Unsupported     Unreasonable or       Funds Put to
       Number                                      2/      Unnecessary 3/       Better Use 4/
             1.a.                                                                    $342.3M
             2.b.                                                                    $580.0M


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law, contract or federal, state or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity where we cannot determine eligibility at the time of audit. Unsupported costs
     require a future decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Unnecessary/Unreasonable costs are those costs not generally recognized as ordinary,
     prudent, relevant, and or necessary within established practices. Unreasonable costs
     exceed the costs that would be incurred by a prudent person in conducting a competitive
     business.

4/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified.




                                             50
Appendix E
             Agency Comments




                  51
52
53
       Appendix F

            OIG EVALUATION OF AGENCY COMMENTS

Due to time constrains, we did not formally respond to each of the Department’s comments on
our draft report. However, we did consider their response along with informal comments in
finalizing our report.




                                             54
